<html>
<title> - EXAMINING U.S. RECONSTRUCTION EFFORTS IN AFGHANISTAN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



          EXAMINING U.S. RECONSTRUCTION EFFORTS IN AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2014

                               __________

                           Serial No. 113-164

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-287PDF                      WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, Massachusetts
SCOTT PERRY, Pennsylvania            AMI BERA, California
STEVE STOCKMAN, Texas                ALAN S. LOWENTHAL, California
RON DeSANTIS, Florida                GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
                                     LOIS FRANKEL, Florida























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable John F. Sopko, Special Inspector General for 
  Afghanistan Reconstruction.....................................     7
Mr. Charles Michael Johnson, Jr., Director, International 
  Security & Counterterrorism Issues, International Affairs & 
  Trade Team, U.S. Government Accountability Office..............    52

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable John F. Sopko: Prepared statement..................     9
Mr. Charles Michael Johnson, Jr.: Prepared statement.............    54

                                APPENDIX

Hearing notice...................................................    84
Hearing minutes..................................................    85

 
          EXAMINING U.S. RECONSTRUCTION EFFORTS IN AFGHANISTAN

                              ----------                              


                         TUESDAY, JUNE 10, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, we will then recognize 
other members seeking recognition, for 1 minute each. We will 
then hear from our witnesses, and we thank them, first of all, 
for their patience and understanding, and that goes for the 
audience as well. We had 16 votes, so we thank you for the 
time.
    And the witness' prepared statements will be made a part of 
the record, and members may have 5 days to insert statements 
and questions for the record subject to the length limitation 
in the rules.
    Before we begin, I would like to express my most sincere 
condolences to the family and friends of the five American 
troops who were killed in Afghanistan just yesterday. No words 
can adequately express the debt of gratitude that we owe to 
those brave troops, and our thoughts and our prayers are 
certainly with them and their families at this troubling time.
    The Chair now recognizes herself for 5 minutes. Last year, 
this subcommittee convened a hearing with Special Inspector 
General for Iraq Reconstruction, SIGIR, Stuart Bowen, on the 
lessons learned from the United States' stabilization, relief 
and reconstruction operations in Iraq. The purpose of that 
hearing was to examine SIGIR's final report to get a better 
understanding of how the U.S. approaches reconstruction 
efforts, and where we can improve so that we won't be 
confronted with the same problems and repeat the same mistakes.
    The major takeaway from that hearing, in addition to the 
billions of dollars in wasted taxpayer money, was that the 
United States Government was unable to adequately plan, execute 
and oversee such large scale operations. So have we learned any 
lessons from Iraq? And have we learned to use our assistance 
more effectively and more efficiently?
    While we may have implemented a few reforms as a result of 
the recommendations from these oversight entities in front of 
us, sadly it seems that we still have a long way to go to be 
good shepherds of taxpayer dollars. Having seen previous GAO 
and SIGAR reports related to oversight and accountability of 
U.S. assistance in Afghanistan, several things are strikingly 
obvious.
    One is that GAO and SIGAR have undertaken an important task 
keeping Congress informed on that status of our operations 
there, but now with the troop presence winding down their 
abilities will be severely restricted due to the security 
situation and lack of access. This will make it difficult for 
them, and subsequently for us in Congress, to keep proper tabs 
on all of the U.S. funded projects in Afghanistan. Another is 
that for all of our effort and desire to do good in 
Afghanistan, we have some very glaring deficiencies that must 
be addressed.
    The U.S. has allocated over $103 billion to Afghanistan 
relief and reconstruction. However, the Afghan Government is 
still not capable of handling such a large infusion of money, 
of goods and of equipment, and it is incapable of achieving 
long term sustainability.
    This is particularly telling with many of our 
infrastructure projects, like in the health sector, where often 
times USAID would fund projects that are way too large and way 
too ambitious, and it leaves the Afghans with facilities that 
are larger and more expensive to operate, like the Gardez and 
the Khair Khot hospitals. And then these hospitals go unused 
and unstaffed because the Afghans can't find the funds nor the 
staff to operate them.
    These efforts are not economical and are not practical. As 
a result, it is a waste of taxpayer dollars. The result of this 
large infusion of money to an incapable Afghan system is 
twofold. A report released this year commissioned by General 
Dunford and conducted by the Joint Coalition Operational 
Analysis, JCOA, determined that the vast influx of money 
overwhelmed the Afghan Government's capacity. This helped 
foster an environment of corruption that has worked against our 
interests from the start, and as General Allen once said, 
corruption is the existential, strategic threat to Afghanistan.
    The other result is that it created an environment in which 
we are not tackling the root cause of the issue. The only way 
for Afghanistan to maintain and sustain the progress it has 
made under these relief and reconstruction efforts is to 
continue to rely on donor contributions to fill the revenue 
gaps. And that is not sustainable for Afghanistan nor is it 
sustainable for us in the United States, or we risk losing all 
of those gains.
    In 2009, the administration decided it was going to pledge 
to provide 50 percent of the developmental aid to Afghanistan 
in direct assistance. In fact, GAO reports that we went from 
$470 million in 2009 to over $1.4 billion in 2010. However, 
that same year several reports, including one commissioned 
directly by USAID, cited how decidedly ill equipped the Afghan 
ministries were to receive direct assistance.
    Both GAO and SIGAR raised the warning flags and recommended 
that USAID identify and assess the risks associated with direct 
assistance, but SIGAR is now reporting that USAID had ignored 
these recommendations and may have approved direct assistance 
without mitigating these risks.
    So how are we to conduct proper oversight of State, of 
USAID, of DoD, to ensure that they are fully complying with the 
recommendations of SIGAR and GAO and the rules and regulations 
laid out by Congress to ensure U.S. taxpayer dollars are put to 
their best use? SIGIR identified several major lessons that 
should have been learned in Iraq that should be applied in 
Afghanistan, and included the need to implement better 
interagency coordination and use our funds wiser, more 
efficiently and more effectively.
    If we are still running into the same problems in 
Afghanistan as we did in Iraq now that we are transitioning, is 
it time for Congress to reexamine how we conduct these 
operations and consider implementing some much needed reform? 
The obvious answer is yes. Of course, yes.
    And with that I am pleased to yield to the ranking member, 
my good friend Mr. Deutch of Florida.
    Mr. Deutch. I thank you, Madam Chairman. I also would like 
to extend my condolences to the five troops who were killed 
yesterday in Afghanistan. We spend a lot of time here talking 
about what our Government does, but it is ultimately the men 
and women who serve our Government in tough places like this 
that we need to keep in mind. And on this day we keep in mind 
the families of the five.
    Today's hearing comes on the heels of the President's 
announcement that 9,600 American troops will remain in 
Afghanistan until 2016. After almost 13 years, trillions of 
dollars and thousands of American lives lost, this news was met 
with the mixed reactions that we have come to expect when we 
talk about Afghanistan, from those who cannot bear the thought 
of even one more American life sacrificed to those who believe 
that it is our responsibility to remain and protect our 
national security interests.
    A recent Gallup poll found that for the first time since 
the war in Afghanistan began, more Americans now view the war 
as a mistake. After the United States has given so much in 
blood and treasure, what do we have to show for it? Have our 
resources been wisely spent? Have we strengthened U.S. security 
at home and abroad?
    The Department of Defense and State Department and USAID 
all continue to have significant civilian presence and projects 
throughout Afghanistan. These agencies have done tremendous 
work in an extremely challenging environment. And the civilians 
on the ground working to rebuild and reform put their lives in 
danger every day and they deserve to be commended for the work 
that they are doing.
    But as our presence in Afghanistan draws down, are we 
putting the necessary measures in place to ensure that the 
programs that we have instituted and the infrastructure that we 
have built to strengthen Afghanistan's security capability, 
governance and civil society are sustainable and will remain in 
place long after we leave?
    Accounting for billions of dollars across multiple agencies 
is no easy task. I believe that the good folks at State and 
USAID have taken significant steps to deal with corruption in 
the Afghan Government and to combat any potential uses. An 
additional independent oversight of these efforts is necessary 
and welcome to create programs that run as efficiently as 
possible.
    In 2008, Congress established the Special Inspector General 
for Afghanistan Reconstruction with a goal of not just tracking 
waste, fraud and abuse, but to recommend more efficient and 
effective methods for completing the enormous task of 
reconstruction in Afghanistan. Thanks to the work of SIGAR as 
well as oversight investigations conducted by GAO, they have 
identified a number of key challenges to U.S. reconstruction 
efforts such as the limited capacity of the Afghan Government 
and the many persistent security challenges.
    And it is clear that evidence of these challenges can be 
seen throughout our footprint in Afghanistan. GAO identified 
numerous weaknesses in interagency coordination and overlap of 
funding accounts between DoD, State and USAID, creating the 
potential for duplication of projects and programs.
    While GAO recommended the creation of a shared interagency 
database in 2010, it appears that little progress to advance 
that recommendation has been made. In 2012, GAO went so far as 
to recommend that Congress take legislative action to require 
that U.S. agencies report information on their development 
related activities in a shared database. While USAID agreed 
with this recommendation, DoD did not.
    SIGAR has also raised serious concerns over State and 
USAID's ability to terminate contracts when contractors are 
found to have ties to insurgent or opposition forces. The 
agencies lack the authorities to swiftly terminate, restrict or 
avoid a contract awarded to a person or an entity identified as 
supporting the enemy or opposing U.S. forces, and under 
existing law the agencies will likely have to pay up to the 
full cost of any contract to complete a termination.
    Implementation of these broad reforms and other 
recommendations will help maximize our assistance and achieve 
greater results. Unfortunately, on a micro level SIGAR has also 
found numerous examples of wasted funds, like the $12.8 million 
utility equipment purchased to meet urgent needs in support of 
the counterinsurgency strategy that sat unused in storage 
controlled by the U.S. Army Corps of Engineers.
    I know that our witnesses today will highlight other 
examples of concern, but I would like to use the remainder of 
my time to focus on how we can better our coordination, 
transparency and accountability going forward.
    Our development work in Afghanistan will not end when the 
last American troop leaves in 2016. Many of our ongoing 
programs have been tremendously successful. We have made great 
strides in building the capacity of the Afghan justice sector, 
instituting desperately needed health programs and dramatically 
increasing access to education, especially for women.
    How can we sustain these programs going forward with the 
ultimate goal of course being to one day transition them to 
complete Afghan control? With the decreased footprint on the 
ground, will we be able to provide needed oversight to make 
sure that our projects stay on track?
    USAID has developed an extensive remote monitoring process 
that has been used successfully in a number of other 
challenging environments. I hope that our witnesses will 
address today critical components required for these monitoring 
programs and when they believe this type of remote monitoring 
can be successful in Afghanistan.
    Any development work of this scale will face its fair share 
of failures and successes, but I believe we are doing important 
work that directly impacts the security of this country. It is 
my hope that today's hearing will shed light on how we can 
continue to ensure that Congress, State, DoD, and USAID are 
working together to ensure that aid is provided in the most 
effective and efficient way possible.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    So pleased to yield to Mr. Chabot, our subcommittee 
chairman.
    Mr. Chabot. Thank you very much, Madam Chair, and thank you 
for calling this hearing to continue this subcommittee's 
oversight of U.S. reconstruction efforts in Afghanistan. Many 
of us have ongoing concerns about the future of Afghanistan.
    President Obama's recent announcement that he was pulling 
all but 9,800 U.S. troops out by year's end and then halving 
that in 2015, and then pulling all our troops out by the end of 
2016 is troubling. Announcing a departure date no matter what 
the conditions on the ground just tells the Taliban how long 
they have to wait for us to leave before they can then, at 
least in their mind, take over the country.
    This announcement puts at risk, I am afraid, the sacrifice 
that our men and women in uniform have made in that country, 
not to mention the billions of dollars the U.S. has invested in 
stabilization or even reconstruction efforts. I fear that we 
may see something similar to what we saw in Iraq when we all 
thought that there would be a number of troops that would 
remain there. They were all pulled out. Fallujah, we see it 
fall to Al Qaeda. We now see rather than a U.S. ally there, we 
have extreme Iranian influence, and I would hate to see a 
repeat of that.
    So thank you very much for holding this.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Higgins of New York.
    Mr. Higgins. Thank you, Madam Chair.
    And obviously, this situation relative to Afghan 
reconstruction is sobering at best, $103-billion commitment 
over the past 12 years. And you look at the condition of that 
country, you have the Afghan economy is about $20 billion. In 1 
year we spent 75 percent of that, some $15 billion in 
reconstruction, $75 billion for a turbine in the southwest, a 
$230-million highway project in the east, $4 billion in 
training and equipping Afghan security forces.
    And I think any assessment of the condition of all of those 
projects is one that requires a lot of explanation when we 
consider that Congress last year approved $53 billion to 
rebuild the roads and bridges of America, a nation of 300 
million, and yet we spent $89 billion over a 12-year period 
rebuilding the roads and bridges of Afghanistan, a nation of 
some 31 million.
    So at the very least, the corrupt nature of the government, 
the inadequacy of the Afghan security forces does not justify 
the commitment that we have made. So I look forward to 
listening to the work of the Inspector General and the rest of 
the panel in exploring these issues more deeply.
    Ms. Ros-Lehtinen. Thank you, Mr. Higgins.
    Mr. Weber of Texas.
    Mr. Weber. Thank you, Madam Chair. I am going to be short. 
Let us go.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Cicilline?
    Mr. Cicilline. Thank you, Madam Chairman and Ranking Member 
Deutch, for holding today's hearing. I too want to extend my 
sympathies to the families of the five soldiers who were killed 
yesterday in Afghanistan.
    As we begin drawing down combat operations in Afghanistan, 
I think it is important to say again that the responsibility 
rests with the Afghan people to operate, build and maintain 
their own civilian and military capacity. And the United States 
has built an important foundation for Afghanistan's future, but 
long term security and sustainable peace in the region can only 
be accomplished when the people of Afghanistan take on these 
responsibilities.
    Some have argued that helping to rebuild Afghanistan's 
schools, bridges, roads and hospitals has been important to our 
mission, and some like me believe that it is time for us to 
return our focus to supporting our own schools, bridges, roads 
and hospitals. But I hope that all would agree that we need to 
be sure that whatever funds have been used and will be used are 
used wisely and that they are building programs that are 
sustainable and institutions that are sustainable.
    But as Mr. Higgins just said, I think there is a lot of 
explanation that needs to be provided when you look at the 
magnitude of the resources that have been invested when we have 
urgent needs here in our own country. So I look forward to 
hearing the two witnesses today, and I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Ms. Meng?
    Ms. Meng. Thank you, Chairwoman Ros-Lehtinen and Ranking 
Member Deutch for calling this important hearing. It is 
important that we conduct this oversight in order to ensure 
that American taxpayer dollars are being used appropriately and 
to ensure that our various agencies and departments are working 
efficiently here and making use of best practices. Without 
appropriate oversight, money will go to waste in Afghanistan.
    I also look forward to a discussion of how we can discuss 
with the American people the issues that are the subject of 
this hearing. Afghanistan is an emotional issue for the 
American people as we have seen this past week with the case of 
Sergeant Bergdahl. As we finally leave Afghanistan, we need to 
make sure we are communicating effectively and honestly with 
the American people about our departure and what will come 
next. Thank you.
    Ms. Ros-Lehtinen. Thank you so much, Ms. Meng.
    And so now we are pleased to introduce our witnesses. 
First, we are pleased to welcome Special Inspector General for 
Afghanistan Reconstruction, John Sopko. Mr. Sopko has more than 
30 years of experience as a prosecutor, congressional counsel 
and senior Federal Government advisor. He spent over 20 years 
on the Hill--poor thing--serving in the Senate and House of 
Representatives including on a House Select Committee on 
Homeland Security and in the Senate Permanent Subcommittee on 
Investigations. Mr. Sopko was sworn in as the Special Inspector 
General on July 2nd, 2012.
    Secondly, we welcome Mr. Michael Johnson who is a senior 
executive and director of International Affairs and Trade at 
the U.S. Government Accountability Office, GAO. In his role, he 
assesses U.S. counterterrorism and security efforts focusing on 
Afghanistan, Pakistan and other terrorist safe havens. Prior to 
this position, Mr. Johnson was an assistant director in GAO's 
Homeland Security and Justice team and he also spent the year 
detailed to the House of Representatives Homeland Security 
Committee.
    We thank you, gentlemen, for your patience, for your 
expertise, for waiting around, and we are so pleased to yield 
to you now. And we will start with Mr. Sopko.

  STATEMENT OF THE HONORABLE JOHN F. SOPKO, SPECIAL INSPECTOR 
             GENERAL FOR AFGHANISTAN RECONSTRUCTION

    Mr. Sopko. Thank you very much. Chairman Ros-Lehtinen, 
Ranking Member Deutch, members of the subcommittee, it is a 
pleasure to be here today to discuss my agency's oversight of 
reconstruction efforts in Afghanistan. Today's hearing as you 
have noted is very timely. As you are well aware, we are in the 
midst of a pivotal transitional year in Afghanistan.
    The ongoing military, political and economic transition 
will undoubtedly shape Afghanistan's future for many years to 
come. For instance, this week's Presidential run-off election 
could result in the first peaceful democratic transition of 
Presidential power in Afghanistan's history. Likewise, just a 
few weeks ago, the President announced his plan to reduce our 
military presence to approximately 10,000 troops by the end of 
2014, and by the end of 2016 the U.S. presence in Afghanistan 
will be reduced to a normal Embassy operation in Kabul with a 
small security assistance office.
    These events may lead many to incorrectly assume that the 
reconstruction effort is also coming to an end, when in fact it 
is likely to continue for the foreseeable future. This is 
largely due to previous commitments made by the United States 
and international community at the Chicago and Tokyo 
conferences, in addition to the weak state of Afghanistan's 
economy and the limited capability of the Afghan Government to 
collect revenue.
    Since 2002, Congress has appropriated roughly $103 billion 
for relief and reconstruction in Afghanistan. This is more than 
the United States has ever spent to rebuild any single country 
in our history. To give this number some context, by the end of 
this year we will have spent more money on Afghanistan 
reconstruction than we did to rebuild Europe under the Marshall 
Plan after World War II. And this year alone, we plan to spend 
more money on Afghanistan reconstruction than we spend on the 
next four countries, that is Israel, Egypt, Pakistan and Iraq, 
combined.
    Now an unforeseen consequence of this historic investment 
by the United States and our allies has been that we have built 
infrastructure and a security force and a national government 
that the Afghans cannot currently sustain on their own. For 
example, the Afghan Government generates roughly $2 billion a 
year in annual revenue while it needs as much as $10 billion 
annually to cover all government operations including the 
important Afghan National Security Forces.
    As a result, for many years to come the Afghan Government 
will depend on external assistance from the United States and 
the international community to meet this budget shortfall. 
Accordingly, it is critical that effective management and 
oversight remain a top priority for all U.S. agencies as we 
prepare to enter a post-2014 reality in Afghanistan. This is 
extremely important given that roughly $18 billion in 
authorized and appropriated reconstruction funds remain to be 
spent by U.S. agencies as of March 31st, 2014, including 
approximately $7 billion by the State Department and USAID.
    Today, SIGAR and our oversight comrades at GAO and the 
other IGs are already contending with a restricted oversight 
access. In fact, based on our best estimate it is likely that 
far less than 20 percent of Afghanistan will be accessible to 
civilian U.S. oversight personnel by December of this year. 
That is more than a 50-percent decrease since 2009.
    Despite these challenges, SIGAR is committed to its 
oversight mission and is developing innovative methods to adapt 
to the evolving security environment. Given what is at stake 
for the United States, the international community and the 
Afghan people, SIGAR believes oversight must be, to use a 
military term, mission-critical. If it is not, the historic 
investment we have made to date and the billions more yet to be 
spent on reconstruction will be significantly vulnerable to 
possible waste, fraud and abuse.
    Thank you very much for the opportunity to testify, and I 
look forward to your questions.
    [The prepared statement of Mr. Sopko follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


INTERNATIONAL SECURITY & COUNTERTERRORISM ISSUES, INTERNATIONAL 
  AFFAIRS & TRADE TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Johnson. Thank you, Madam Chair.
    Madam Chair, Ranking Member Deutch and members of the 
subcommittee, I am pleased to be here to discuss key issues 
relating to U.S. efforts and Afghanistan. Since 2003, GAO has 
issued over 70 products including a special publication in 2003 
highlighting key issues for oversight. We have also just been 
to numerous congressional hearings and briefings on U.S. 
efforts in Afghanistan. During the course of our work we have 
made over 150 recommendations on a range of actions that should 
be taken to improve program planning, implementation, 
management and oversight.
    Today I would like to highlight a few key issues. Among 
them are the need to mitigate against the risk of providing 
direct assistance to the Afghan Government, the oversight and 
accountability of U.S. development projects, and as the chair 
noted, the need for a comprehensive database and the need for 
contingency planning as the U.S. transitions to a predominately 
civilian-led presence.
    Regarding direct assistance to the Afghan Government, in 
2010, the U.S., along with other international donors pledged 
to provide at least 50 percent of its development assistance 
support through direct assistance. This was contingent on 
certain controls being in place, and as the chair has noted, we 
reported in 2011 that the U.S. fulfilled its pledge by nearly 
tripling its awards during the first year. We went from about 
$470 million in Fiscal Year 2009 to about $1.4 billion in 
Fiscal Year 2010.
    We also reported that while USAID had established and 
generally complied with various financial and other internal 
controls, it did not always assess the risk of providing direct 
assistance. Although USAID took steps in response to our 
recommendations, we have since learned of SIGAR's follow-on 
findings that USAID may have again approved direct assistance 
to some Afghan ministries without mitigating against all 
identified risks.
    Regarding oversight and accountability of the USAID 
development projects with respect to Afghanistan, since 2002 
U.S. agencies have allocated over $23 billion for governance 
and development related projects. While USAID is taking some 
steps in response to our prior reviews to improve its 
monitoring and evaluation efforts, USAID continues to 
inconsistently apply performance management procedures.
    USAID has also fallen short in maintaining institutional 
knowledge in some areas and still needs to strengthen its 
oversight of its contractors. Additionally, as the ranking 
member noted in his opening statement, to avoid the potential 
overlap and duplication and to ensure a full accounting of 
USAID, DoD and State funded development projects, GAO has made 
multiple recommendations and, actually, dating back to 2008, 
including suggested congressional action leading to 
establishment of a comprehensive shared database to account for 
U.S. funded projects. Although State and USAID have taken some 
steps to designate a database, nearly 6 years later we continue 
to report on the need for a database. This is due in part to 
the lack of DoD action.
    Regarding the need for contingency planning, in February 
2013 we reported that while circumstances in Iraq are somewhat 
different from those in Afghanistan, potential lessons could be 
learned from that transition and when you transition from a 
military to civilian-led presence.
    As we have reported, program implementation, oversight and 
accountability in Afghanistan have and are very likely to 
continue to be challenged by multiple factors, including a 
dangerous security environment, the prevalence of corruption 
and the limited capacity of the Afghan Government.
    As we have also highlighted, contingency planning is 
critical to the successful transition and to ensuring that the 
environment is conducive to carry out operations and to also 
carry out oversight. The plans to invest billions more in 
Afghanistan, the challenging working environment and 
uncertainties of the bilateral security agreement underscore 
the continued need for contingency planning and continued 
oversight of U.S. efforts.
    In closing, Chairman Ros-Lehtinen, Ranking Member Deutch 
and members of the subcommittee, I would like to personally 
thank the dedicated GAO staff who have put their lives on the 
line in carrying out oversight. I also thank the Congress and 
members of the subcommittee for their support and for calling 
this hearing on key issues, and note that GAO stands ready to 
assist the Congress and the administration in ensuring that 
there is oversight and accountability of the U.S. partnership 
in Afghanistan.
    I thank you for the opportunity again to testify. This 
concludes my statement and I would be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Johnson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you to you both for excellent 
testimony, and I will begin with the question and answer 
segment of our hearing.
    Corruption is so systemic, it is so pervasive in 
Afghanistan that it only serves to exacerbate the already 
difficult obstacles facing the government's ability to govern 
effectively. Not only that but it undermines the security of 
both the international forces and the Afghan people. It erodes 
the people's confidence in their government, and it leads them 
to distrust us and it leads to the waste of billions, billions 
of taxpayer dollars.
    Yet for all of these warnings and all of the reports we 
have had about corruption in Afghanistan, we have yet to 
develop an anti-corruption policy. Even Karzai, Karzai, if you 
can believe it, acknowledged that this is a major obstacle to 
progress. How is it even possible that we still don't have an 
anti-corruption policy even as we are sending billions of 
dollars in direct assistance to Afghan ministries despite all 
the warnings, and do we have any insight into updated amounts 
of direct assistance?
    And sticking with the direct assistance issue, after the 
assessment that the Afghan ministries were not ready, were not 
capable of receiving direct assistance, and after 
recommendations from GAO to mitigate all identified risk before 
proceeding with direct assistance, USAID apparently continued 
anyway without regard to these warnings. Why did USAID continue 
to provide direct assistance despite the warnings, and are 
there any other instances where USAID has ignored 
recommendations? Also, how would you characterize your 
relationship with USAID, and what does Congress need to do to 
ensure that USAID is in full compliance before going forward 
with these high risk programs?
    I am also greatly concerned about the duplication of 
efforts where we see overlaps between State and DoD on 
infrastructure projects because there is no central and 
comprehensive database. I know that is one thing you both would 
say is seriously lacking and something that we need to address. 
What else would you say the Congress needs to do to ensure that 
USAID, State, DoD are all accountable for these billions of 
dollars that we are spending in Afghanistan and what tools do 
you need us to give to you to ensure that you have everything 
you need to continue to do your work?
    I know it will be extremely difficult for you with the 
troop drawdown and the uncertainty over the BSA, but we want to 
help you to keep you safe while you continue to perform your 
duties. Thank you.
    Mr. Sopko. Madam Chair, starting with your last point and 
that is on assistance that we can need, I think it would be 
useful for Congress to respond with the very valid 
recommendation that GAO has made about a centralized database. 
And I don't know if that is authorization language or 
appropriations language. One of the hardest problems we have, 
and I am certain GAO and I know my colleagues in the other IGs 
have, is we don't even know where the money has been spent. So 
you start with that problem. And by requiring the agencies to 
put together that database that would be extremely useful.
    We are starting to do that ourselves. I think in some of 
the background material we gave you, we are actually trying to 
collect this information. But it really isn't the role of the 
Inspector General to be the first one to collect this. This is 
something that should be done.
    As for the issue about direct assistance, I think a serious 
problem here was that USAID had finally done some really good 
assessments, and we praised them in our audit that came out 
earlier this year about the direct assistance. They assessed 
the Afghan ministries, and what we had hoped they would have 
done would have been to actually use that as leverage to 
bargain on conditionality, to get in place particularly in the 
future, where it is going to be more difficult to go out there 
and kick the tires of the programs. But unfortunately they 
waived it, and we don't really have an answer on why they 
waived it.
    Mr. Johnson. I can actually chime in with some updated 
numbers, and first to your point about corruption. Corruption, 
as we all had said in the beginning, will remain a challenge 
and has been one of the biggest challenges we have had of the 
U.S. and of the space in operating in Afghanistan.
    With regards to direct assistance funding, the latest 
figures we have is roughly the amount is $800 million for 2012 
and approximately $900 million in 2013 in direct assistance. 
That shows a drop-off from the 1.4 and it is closer to their 
target of 50 percent but not quite has that met that goal. So 
it has come down somewhat but it is still pretty significant.
    In terms of what more Congress can do, I would definitely 
agree, as we sort of suggested, that you consider mandating 
that there be a shared database or a comprehensive database 
that has the entire inventory of development projects, 
especially given over $23 billion has been invested of the 
taxpayers' money and that as I mentioned earlier, USAID has 
taken action. Afghan Info has been designated as the official 
database.
    However, the Department of Defense, despite various 
briefings with USAID and others, have basically not agreed to 
routinely put their stuff in that database automatically and 
share that database and use that database or any other database 
for that matter. And so we basically would suggest that 
Congress now may need to mandate that given the CERP funding, 
given the AIF funding of the task force and business 
operations, all the potential funding that exists there.
    And we looked at this a little more in-depth comparing 
those three programs to the USAID funded efforts under ESF or 
development assistance, and we didn't necessarily find exact 
duplication, but we found 53 cases of potential duplication and 
overlap between the agencies.
    And the reason why we can definitively say that is because 
the data that DoD was maintaining did not go down to the level 
it needed to go down to of capturing data on the villages that 
were receiving the assistance. So we think a shared database 
would encompass all that sort of information. I think also 
continuing holding hearings like you are doing today on key 
oversight issues would put the attention of the Congress on the 
agency requesting money every year, additional funding.
    With respect to USAID's cooperation with GAO and probably 
the oversight community as well, I would say that over the last 
2 years or 18 months there have been some significant 
challenges in terms of our normal operation with USAID. They 
have been one of the more cooperative agencies, but we have run 
into major challenges in trying to carry out our mission for 
the Congress.
    Ms. Ros-Lehtinen. Thank you very much.
    Yes, Mr. Sopko?
    Mr. Sopko. Chairman, if I could just add, I echo the 
statement by my colleague from GAO in that although we have had 
very good support from DoD on cooperation, particularly under 
General Dunford, General Cole and a number of those colleagues 
over there, we have had some problems with USAID in getting 
access particularly through over classification and, we think, 
improper classification of some material as unclassified, 
sensitive but unclassified.
    But can I just add to my colleague's numbers? I think he 
was focusing on the State and USAID direct assistance, but we 
have to keep in mind the biggest player in all of this is DoD. 
And so to direct assistance, DoD is giving approximately $4.2 
billion right now in direct assistance, and that is going 
directly to the Ministry of Interior and Ministry of Defense 
and also going through some of the trust funds. So that is the 
biggest player. And although we are focusing on the USAID 
ministerial assessments, there still has never been a 
ministerial assessment on the Ministry of Interior and the 
Ministry of Defense by DoD and we have highlighted that as a 
potential problem.
    Ms. Ros-Lehtinen. Thank you very much.
    Our ranking member, Mr. Deutch, is recognized.
    Mr. Deutch. Thank you, Madam Chairman.
    Mr. Sopko, did I understand you said that more money is 
spent on Afghanistan reconstruction than the Marshall Plan?
    Mr. Sopko. By the end of this year taking into 
consideration inflation, et cetera.
    Mr. Deutch. So what is the total amount? As you analyze it 
today, what is the total amount spent by this country on 
Afghanistan?
    Mr. Sopko. The appropriations on the Afghanistan 
reconstruction is $103 billion, I believe.
    Mr. Deutch. And for both of you, as you analyze what you 
refer to as waste, fraud and abuse, but fraud and abuse 
ultimately is waste as well, from all of the responses and all 
of the good reports that you have put out, is there a total 
amount? Of that $103 billion is there a total amount that has 
been wasted?
    Mr. Johnson. I am not in a position to give you an exact 
figure on that. That is something we haven't looked in-depth at 
in terms of a range of figures. But we do know that there has 
been some various inefficiencies. There are some concerns about 
whether there is really an inventory of everything. The biggest 
problem is that many of the agencies weren't keeping good 
performance metrics for us to look at whether or not the money 
had been used for its intended purpose or met its goals.
    Mr. Sopko. I agree. We can't come up with an estimate. We 
would be spending all of our time trying to figure out what was 
lost in the past. We are looking forward. I think it is safe to 
say a lot of money has been wasted. Probably more wasted than 
actually stolen, and that is the problem. And I think going 
back, if we don't even know where the money was spent it is 
hard for us to come up and quantify particularly GAGAS 
standards, which is a generally accepted auditing standards, 
how much money was really spent.
    Mr. Deutch. And explain it again. We don't know where the 
money was spent and how much of that $103 billion, do you think 
we don't know where it was spent?
    Mr. Sopko. Well, first of all, you have to take, out of the 
$103 billion that is authorized and appropriated, as I 
mentioned, $18 billion is still in the pipeline. So that money 
is still safe. It hasn't gone out and been obligated yet. The 
vast majority of the money, over 60 percent, I believe, was 
spent by DoD. So that could be on CERP programs, it could be on 
numerous programs. I am not saying that is wasted, but I am 
just saying that is where the money is, mainly DoD. DoD is the 
big player in Afghanistan reconstruction.
    Mr. Deutch. And so I also want to move forward, but for 
everything that you have looked at, Mr. Johnson, for all your 
reports, there are plenty of examples that you pointed to, 
right, where because of the lack of systems in place, because 
of lack of oversight, because the contract, all the myriad of 
reasons that we have discussed there has been some significant 
amount of waste, it would be helpful if there were some range, 
even of the reports that you have got, of the review that you 
have done, where you know there is--here is my point. I want to 
look forward too.
    But as we deal with this issue of a shared database, it is 
a whole lot easier to convince all of our colleagues here and 
those who may not be inclined to support a shared database, why 
it is important, if beyond speaking generally about the types 
of problems that exist, we can point out that of $103 billion 
taxpayer dollars that X percent has been wasted. So I am not 
asking you to recreate the wheel, but based on all the analysis 
that you have done you must have some sense.
    Mr. Johnson. Well, I think we can speak in broader terms 
and give specific examples, but I think it gets back to the 
point that Mr. Sopko noted that a lot of stuff wasn't done 
efficiently or it cost a lot more than it probably would have 
cost in other contingency areas as well.
    I would note the ANSF, for example, where the biggest 
amount of the U.S. contribution has been on the security side, 
and obviously that goal was supposed to have been accomplished 
back in 2008 where the Afghan Security Forces were supposed to 
be fully capable and competent and independent operations. 
Well, what happened over time and over the many years that we 
put billions of dollars and enormous amounts of money, the 
benchmarks continue to be reset every single year. We have 
lowered the standards of their capability ratings.
    Initially, we had been trying to do it the U.S. way in 
trying to get these guys to operate the way our security forces 
operate. Well, that wasn't deemed to be ultimately Afghan right 
or Afghan first. So we wasted a lot of money in the beginning 
buying U.S. type equipment, training on those equipment that 
they couldn't maintain or sustain. We built a force that 
obviously the Afghan Government cannot sustain, but they are 
going to continue to be relying on donors to support.
    The U.S. contributed 90 percent of the Afghan public 
expenditures related to security issues. The United States has 
paid for that. So we are the largest contributor on the 
security side. And in terms of waste and efficiencies there, it 
could have been done more efficiently, is what I would say 
would really be the message there.
    And we could give you some examples where USAID was going 
to go in and build a road that perhaps DoD had already done. 
That is why you need a shared database. So USAID, as they noted 
to us, would like to know what DoD is going to be leaving 
behind so they will have some indication of what is already 
there as they move forward with their planning.
    Mr. Deutch. Okay. And what is the biggest impediment to 
your shared database since it has now been years since you 
proposed it?
    Mr. Johnson. Well, we don't really see a major impediment. 
DoD's position is that they are concerned about the security of 
the database itself, whether there are sufficient firewalls to 
prevent others from getting in. USAID is showing us that that 
would not be a problem. I honestly think it is a reluctance on 
the part of DoD to engage with USAID in completing this 
database that has been put in place.
    They actually send, they give them a disc, I think it is 
every month or so, every 2 or 3 months for USAID to upload. So 
the data is getting in there eventually but it is not readily 
available.
    Mr. Deutch. Finally, does the hesitancy on the part of DoD 
stem in any way from concern about what we see going forward? 
Since 60 percent of the $103 billion is DoD funded, and we are 
not in the position to identify the total amount of waste, is 
there a concern in going forward? Some of what you described, 
Mr. Johnson, I would suspect our friends at DoD would view 
differently than the way you have described it in terms of 
change of standards and why those standards were changed. 
Concerns for security.
    What do we do to help convince them that this is ultimately 
necessary, and again I just go back to where I started. I would 
really urge you, for all of the analysis that has been done it 
would be immensely helpful for us to have a conversation not 
just about going forward, but if we can't acknowledge that we 
have spent $100 billion and we know billions have been wasted 
but we can't even really identify some ballpark of what that is 
and where that comes from, then it makes it even harder to 
support. Forget the creation of a shared database, it makes it 
harder to support continued funding if we are not even going to 
identify where the problems were to start with. And with that I 
yield back, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch. And now I 
am so pleased to yield to a real war hero of both Iraq and 
Afghanistan, fighter pilot Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Madam Chair, you are too nice. 
And thank you all for being here. The important thing to do at 
the very top of this is for everybody to remember why we are in 
Afghanistan in the first place, and that is it was a beautiful 
day in September and we were attacked right in the United 
States of America when we thought we were completely defensible 
by two oceans, and thousands of Americans lost their lives.
    And since that day on September 11th, thousands of 
Americans have lost their lives in carrying freedom for the 
Afghan people, and I think importantly too, thousands of 
Afghans have lost their lives. And we see today in the, I 
guess, kind of the post war mission of Afghanistan, the Afghan 
people and the Afghan security forces are really stepping up to 
secure their country.
    There are going to be a lot of challenges. In fact, 2 weeks 
ago the President announced his plan to withdraw nearly all 
American service members from Afghanistan at the beginning of 
2014, combat mission ending at the end of 2014. He is going to 
leave in place approximately 9,800 service members, and the 
following year those numbers will be reduced to the amount 
necessary to provide security at our Embassy in Kabul.
    I would bring, and I notice that this is the purpose of the 
hearing, to memory, the parallels between what has happened in 
Iraq and I think what the President has outlined for 
Afghanistan. In fact, today I read the news and found out that 
Mosul, the place where I had been multiple times in the war on 
Iraq, has just fallen to extremists, and they see what happens 
in a post American situation.
    With that said, the reduction of force is going to place a 
significant demand on the Afghan National Security Forces. As 
the GAO has reported, between Fiscal Years 2002 and 2013, 
nearly 65 percent of the agency funding went toward supporting 
Afghanistan security in areas such as developing the security 
forces and counternarcotics effort. Questions are, with the 
looming U.S. troop drawdown more of the onus is going to be 
placed on the Afghan National Security Forces to maintain the 
stability in the country. A large portion of the $103 billion 
we have invested has gone to them in the security. Are they now 
prepared to take the lead and can they help sustain an 
environment in which development of infrastructure projects 
which we put in place will succeed?
    And this is important, because for 13 years we fought to 
create an environment that they can take over. And I want to 
make sure that at the end of the day we are not in a hurry that 
just to fulfill a campaign promise so that 13 years of efforts 
by the American people and by the Afghan people don't go to 
waste. Because I think in 20 years, history books will judge us 
very harshly if that is the case.
    So Mr. Sopko, I will go with you first. Is there an 
environment where in a post America era they can succeed?
    Mr. Sopko. The answer to that question is a couple of 
points. Yes, of course they can succeed. There have been great 
successes with the military. You have seen the Afghan military 
hold their own over the last fighting season, and I think 
everyone is hopeful that they will continue in that robust 
fashion.
    There are concerns. And the major concerns that we have 
highlighted and I believe General Dunford has highlighted is 
that you need the BSA. If there is no BSA there is every 
likelihood there will be failure.
    Mr. Kinzinger. But we can assume it will be. It seems like 
it is on track to, so----
    Mr. Sopko. We are very hopeful. I have no inside 
information, but that is what I have read in the press that it 
is very hopeful that both candidates have said they would sign 
it.
    But the second issue which, I think, again, I can't speak 
for General Dunford there, he is really the expert on the 
military capabilities. But it is basically the back end, it is 
the tail of the ANSF, the salaries, the support, the buildings, 
the getting the fuel, the getting them to understand and how to 
do that which is what he is working on, and I think the vast 
majority of the assistance going forward will be trying to make 
the military capable to do that.
    We are looking at, we have looked at spare parts, we have 
looked at fuel, we have looked at literacy, and in all those 
areas there are serious problems. So we have to make certain we 
get those right.
    Mr. Kinzinger. And I understand you are not a policymaker 
so I am not putting this on you, but I think my big concern in 
this is in 2016 the President has put out an outline that says 
counterterrorism is a good mission in 2016, advising and 
supporting the Afghan Government is a good mission in 2016, but 
in 2017 it is not a good mission because we are going to pull 
all of our troops out, only for Embassy security.
    So my question is, assuming now that we have basically 2 
years in which to miraculously bring the Afghans to where they 
can operate without American assistance, there is a lot of 
progress that has to be made in 2 years. If all troops happened 
to be out today, if we happened to pull them all out today, 
what do you think would happen to the future of Afghanistan and 
those reconstruction projects if that were to happen today? And 
that gives us a benchmark for where we need to be in 2 years so 
that it doesn't fall apart.
    Mr. Sopko. I would have to refer to the testimony, I think, 
of General Dunford. I think it was over here in the House Armed 
Services Committee, or maybe it was the Senate Armed Services 
Committee, just last month where he said if we pulled out today 
there would be a collapse. I have to rely on his expertise. We 
have not done a study on that. I don't have any audits on that.
    Mr. Kinzinger. Okay, thank you, and I think the point there 
is if all troops were out today we would see another collapse. 
Instead of having a mission for the next couple of years we 
want to focus on withdrawal and we are focused on pulling out. 
It might be smart to actually have a mission past 2016 in which 
we can have a long term gain when we get Afghanistan where they 
need to be.
    Gentlemen, thank you for being here and I yield back.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Connolly of Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    I know you want to look forward, but I think before we do 
that we need to glance backward and see what we have learned or 
not learned. Reading your reports, Mr. Sopko, and press stories 
and including press stories with IGA and listening to your 
testimony and now Mr. Johnson's today, I have got to tell you 
one has the awful sense of deja vu all over again.
    We have been in Vietnam, for example, lots of aid money 
thrown at Vietnam. Biggest aid mission in the world was in 
Vietnam. There was no aspect of life in South Vietnam we 
weren't having to finance. And the waste, the fraud, the abuse, 
the inefficiency, the lack of metrics to show what we did or 
didn't do positively has an eerie echo in your testimony today.
    When I, as the chairwoman knows, used to be a staff member 
of the Senate Foreign Relations Committee, we used to have a 
chart of what aid would produce every year that was very 
helpful, and it was called the all-spigots chart. The all-
spigots chart, showing all sources of assistance from the 
United States, from IMET and ESF to a map to development 
systems and other spigots. When you refer to $103 billion total 
reconstruction funding, is that all spigots? Does that include 
all of the DoD money?
    Mr. Sopko. No, it does not include war funding. Straight 
Title 10. This is just reconstruction. So $103 billion.
    Mr. Connolly. For the entirety, for the duration of this 
war?
    Mr. Sopko. And only U.S. funding.
    Mr. Connolly. Only U.S. funding. And would that include 
CERP?
    Mr. Sopko. Yes, it would, sir.
    Mr. Connolly. All right, let us take that as our universe. 
I know you are reluctant to say how much got wasted. Tell me 
how much you are comfortable with in looking at it that you 
think actually performed fairly well by some metric. We have 
got to have some metrics here.
    Mr. Sopko. Congressman, I would love to tell you 50 
percent, 60 percent, 70 percent or whatever, but I live in 
unfortunately in the world of GAGAS, Generally Accepted 
Government Accounting Standards, and I can't say that. And I 
know my good colleague over in Iraq reconstruction once came up 
with a number and it was later shown to be wrong or nothing 
supporting it.
    I can't say that. I look at specific programs and the 
specific program we can say that succeeded or didn't succeed or 
they want to risk. A lot of times we are going in and alerting 
people that you run a risk of fraud or waste or abuse, so I 
assume my colleague in GAO has the same. We can't come in and 
say they have lost X amount or they have succeeded. Now we have 
identified some successes.
    And actually I asked, and I think the last time I testified 
before another committee I said I sent a letter to the 
Secretary of State, the Secretary of Defense, and the head of 
the USAID said give me your success stories and why. And I 
thought that would be used, that we could use that in our 
analysis of lessons learned. But I just can't answer that 
question because I don't have a basis for saying what 
percentage.
    Mr. Connolly. Okay, let me just tell you the consequence of 
not being able to answer that question.
    I am picking up where you left off.
    It says to the public, by implication, that all of it was 
wasted. If you can't cite metrics, not anecdotes but metrics, 
30 percent absolutely went to the purpose intended and is 
performing well, another 20 percent sort of in a little grayer 
category and then 50 percent is wasted, or whatever the metrics 
may be. But if the answer is I can't answer that question at 
all, then it suggests to the United States taxpayer $103 
billion in reconstruction went down the drain in Afghanistan, 
100 percent.
    Mr. Sopko. Congressman, with all due respect, I think every 
inspector general you asked, whether it is the Department of 
Energy IG, VA IG, HHS IG, could not answer that question. So I 
don't know if the American people merely jump at the response 
or the answer that then all of the money is being wasted. I 
don't think anyone, any IG, you cannot give us enough money to 
answer that question. We would be spending all of our time 
trying to highlight what worked.
    And if you actually look at our legislation, we look at the 
'78 Act and my act, it is not to find out what has worked. My 
brief is given to me by you and it is to highlight problems, 
not successes.
    Mr. Connolly. Yes, but you also demurred in the answer to 
my colleague's question, Mr. Deutch, all right, how much is 
wasted? So we can't put a metric on how successful we have been 
and neither can we apparently have enough, to Mr. Deutch's 
question, about how much do we feel confident was wasted in 
retrospect.
    Mr. Johnson?
    Mr. Johnson. If I can testify, the biggest problem that we 
both face as an oversight entity is that there is poor data 
being collected. And when data is collected--I will give an 
example of USAID when we looked at the alternative development 
program or the agriculture program. Enormous amount of data was 
coming in to USAID from the implementing partners. Well, USAID 
didn't use the data. They didn't assess the data and actually 
their ADS requires them to approve their implementing partners' 
indicators and targets. They weren't even approving it. So they 
were giving money to the implementing partners and they were 
carrying out missions and reporting results, and USAID was not 
using it. So for us to come in, we can look at----
    Mr. Connolly. Okay. Well, Mr. Johnson, I appreciate your 
answer. This is 2014. We have been running bilateral and 
multilateral aid programs since immediately after World War II. 
This is not a new subject. What do you mean we are just 
throwing money and USAID has no records to be able to evaluate 
the efficacy of the program? How is that possible? Let alone 
$103 billion?
    Mr. Johnson. That is a good question and it is something, 
with the recommendations we have made and the oversight 
community and congressional action, perhaps USAID and others in 
State Department will be more accountable on terms of when they 
come up and ask you guys for money and they don't have metrics.
    Mr. Connolly. Would the chair indulge me just one last--
    Ms. Ros-Lehtinen. Absolutely. Please continue.
    Mr. Connolly. I thank the chair.
    Mr. Sopko and Mr. Johnson, but something that bothered me 
when I was in Afghanistan and Iraq was CERP. Because it is in a 
category of, in a sense it was well intentioned walking around 
money so a military officer, commander, could see a problem and 
fix it on the spot. I see your bridge is out. Let me help 
repair it.
    That program, however, became an enormous equivalent 
bilateral aid program run by the military who are not experts 
in economic development. And it is all cash and so one worries, 
in a category of what could go wrong with that I wonder if you 
could just share with us your observation and the vicissitudes 
of a CERP program.
    Mr. Sopko. Congressman, you are highlighting an issue that 
we have serious concerns with, I think many Members of Congress 
had serious concerns with, and I think that if I can make a 
comment, probably a little bit out of my league, I think it was 
a wise decision that in your consolidated appropriations bill 
of 2014, I think CERP funding was pretty well cut.
    But there was nearly $2.29 billion obligated of which $2.26 
billion has been disbursed. In January of this year we sent an 
inquiry letter to DoD and ISAF regarding all the unobligated 
funds, all the performance metrics, and any assessments that 
had been done. We are still in the process of doing that and 
once it is done I am happy to report back to you and the other 
committees on what we are finding.
    I think there are serious concerns. It was a good 
intention. But if I can answer, use that question to try to 
answer your question and Mr. Deutch's question is, okay, even 
taking that CERP money, some of it actually worked. It is going 
to be so difficult to focus and try to do that. And you are 
just taking the CERP. That is only $2 billion. To do that for 
everyone of these programs, it is going to be very difficult to 
say what percentage worked and what percentage didn't.
    We have to get the metrics. We have to buy their metrics. 
What my colleague and I are saying is we are not given the 
metrics or they don't use the metrics. So how do we determine 
whether CERP works or not? I mean I have been berated by DoD 
for even questioning the CERP proposal, because it saved lives. 
Now I don't know what that means. Maybe it did save lives and 
maybe that was the metrics that they wanted to use.
    But it is hard for me to then take that thing, saving 
lives, and saying the $2.2 billion was wisely spent. That is 
where you see the predicament we are in, and I think Mr. 
Johnson is probably in the same predicament over in GAO.
    Ms. Ros-Lehtinen. Thank you so much. Thank you, Mr. 
Connolly. And while some of us can say, well, when I was in 
Iraq or when I was in Afghanistan, here is a man who was really 
in Iraq. An Iraq vet who is still serving our country valiantly 
in the Air Force Reserve, Mr. Collins is recognized.
    Mr. Collins. Madam Chairman, I do appreciate that. And Mr. 
Connolly you might want to stay here for just a moment because 
as much as we disagree, my good friend, we are getting ready to 
agree wholeheartedly right here.
    But this is, look, you all have pointed out some things. I 
came for some other questions and I am going to get to those in 
a minute, but let me just say if anybody from USAID is here, 
DoD is here or you are watching by camera, the only way is if 
these who are supposed to oversight what is being spent tell me 
that they are not getting the metrics to spend money, they are 
not getting the metrics on how to even evaluate these programs, 
then maybe it is time to cut the money off. Maybe it is just 
time to say let us stop.
    If you can't handle it because there is, this is the 
problem that I have seen so far and I am for, being in the 
military we have got to rebuild, we have got to help the 
country out. I have got no problem with that. But I have a huge 
problem with no accountability.
    And the people in the Ninth District of Georgia do not get 
it. We are not spending Monopoly money here. We are not 
spending money that just pops out of the air and somebody says 
it is free health care, free this. It is not that. It comes out 
of my back pocket and your back pocket. It is tax dollars. We 
have got a VA system that has problems and issues. We have got 
other issues in this country, and we have got this problem 
where we are just blowing money and we don't even get the 
metrics where Mr. Johnson and Mr. Sopko can't even do their 
job? Are you kidding me?
    We even have this commit? I mean, Madam Chair, this is 
amazing to me. I feel for you that you are trying to do a job 
with no metrics. You are trying to do a job in which they are 
given money and say go spend it, be happy, see if it works or 
not. But we are not going to provide you the metrics. And if 
DoD gets upset at your question, Mr. Sopko, so what? Send them 
to me. I will ask the same questions. They can get mad at me. 
This is ridiculous.
    I submitted language in the State and Foreign Ops 
Appropriations bill forcing USAID and State Department to take 
a closer look at the funds it is allocating to various 
reconstruction projects it has got over in Afghanistan. 
Frankly, as we have just said, over $100 billion between DoD, 
USAID, the others, what promise do we have if we continue this?
    And I agree with my friend, Mr. Kinzinger. There are some 
things that we need to do to hopefully keep this country stable 
and not have to send our sons and daughters back there in the 
matter of a few years or send others there. But how can we take 
it seriously if USAID and others can't even provide metrics 
because they don't want to? How can we have any effect? Would 
either one of you would like to answer that?
    Mr. Johnson. It is definitely difficult, and that is part 
of the way we do our work. We need to measure the U.S. progress 
against the U.S. identifies strategic goals and objectives. And 
in order to do that we absolutely need metrics. Those metrics 
need to be collected routinely and not every so many years.
    But they should be collecting those depending on the type 
of program it is throughout the lifetime of the program and 
making those available to us. They should be approving those 
metrics that they are asking their implementing partners to 
carry out in some of the projects. And quite frankly we did 
find several deficiencies in that area.
    I think later on it probably came up, how do you gather and 
collect information in a war zone or in an environment like 
this? Well, they have done it in other locations. They have 
done it in the tribal area in Pakistan where that is that they 
have collected data using other alternative means to get that 
data and to have those metrics and report on progress. So I 
don't think it is something that can't be done in Afghanistan. 
They just need to commit to doing it.
    Mr. Sopko. Congressman, can I add something to my 
colleague, and it is something that Congressman Connolly 
alluded to. And that is, lessons learned from Iraq, lessons 
learned from Vietnam. I cited a report done by USAID in 1988, 
and it is a lessons learned report on USAID's operations in 
Afghanistan from 1950 to 1979. I couldn't find anybody in our 
Embassy or anybody at USAID who had ever read it. This is 12 
years. If I was being assigned to USAID, I think I would want 
to read my lessons learned report from 1950 to 1979.
    I spoke to a very prominent general, a wise general who 
says, I am in the Army. We do lessons learned report by going 
to the bathroom and pulling paper. We write them like crazy. 
The problem is they are not applied.
    And I think one of the things you can do and Congress can 
do is mandate that each of the services do these lessons 
learned reports, but more importantly that USAID and State do 
them, and in the future, as we all know, this will be an all-
government approach to a problem. And that means we need to 
mandate that USAID, State and DoD, and any other agencies 
involved, probably the intel community, do combined lessons 
learned reports on contingencies.
    Remember, under Goldwater-Nichols, you created purple in 
the military. You have not created purple in contingencies. You 
are not requiring State and USAID to do the same in-depth 
analyses and lessons learned like all of the various--I know, 
sir, you have served in the military so you understand the 
lessons learned reports. The TRADOC produces doctrine. You are 
not seeing combined doctrine coming out on the next 
contingency. So I throw that out. If you want to make certain 
we succeed, maybe not for Afghanistan but at least we have 
learned from our mistakes before we do it again. That is 
something you may want to consider, sir.
    Mr. Collins. Madam Chair, if you will just indulge me for 
just one moment. I think the thing, and I understand what you 
are saying here. What bothers me is just simply looking at this 
as a simple business plan. You don't get money for just, I have 
an idea, let us throw money at it. Is there a way that maybe we 
could metric that, say, the metrics have to be applied first 
before the money is ever transferred? Because once the money is 
gone it doesn't matter. They don't care. Once the money is gone 
it doesn't matter.
    I think the problem we have here, and I will go back to Mr. 
Connolly's statement. And where there is good about it, I 
think, I come from a background where neither or. I am a male. 
So if you tell me nothing has happened and everything has 
happened I will discount it immediately and I will show you 
where it is wrong.
    So something in the middle has gone well and a lot of 
things are done wrong, but when we look at this repeatedly, the 
people of America, Ninth District, they want the truth. They 
want the honesty of what is going on, and they will accept the 
truth even if it is hard, but they will not accept 
incompetence. And this is simply incompetence that you have 
unveiled. Now it may be veiled in community service. USAID may 
call it whatever they want to call it. DoD may call it whatever 
they want to call it. Anybody else may call it what they want. 
It is incompetence. Plain and simple, fallible incompetence.
    And I don't understand how we continue to do this, and it 
just, frankly, disturbs me. I don't think we have learned a 
lesson. You just stated it. We have not learned anything. We 
have to do hot washes. When I transferred out of Iraq I had to 
do lessons learned. And I had to actually tell the person 
coming in who took my job, here is the lessons learned. And it 
didn't just involve where is the latrine and where is the DFAC. 
It had to do with what we found on the ground and how you 
worked it out.
    I applaud your work, but in some ways I feel for you. You 
are in a no-win situation. And this country ought to be ashamed 
of what we are doing in this area because we can do better. We 
can do better. If we truly want to fix it, we truly want to 
work it, we can do better. The agencies that I am talking to 
today, my office is 513 Cannon, come and explain your 
incompetence to me.
    Madam Chair, I yield.
    Ms. Ros-Lehtinen. Thank you very much. And just in 
conclusion, as our memo points out as of March 31, 2014, 
cumulative appropriations for relief and reconstruction in 
Afghanistan total approximately $103.17 billion in Fiscal Year 
2002. This is more than the United States has ever spent to 
rebuild a single country. SIGAR findings financial audits were 
not conducted for 99 of those 140 assistance awards, and USAID 
did not meet their strategies objective to use performance 
indicators to measure and evaluate its performance toward 
meeting the strategies goal.
    And GAO has previously reported on systematic weakness in 
USAID's monitoring and evaluation of programs carried out by 
its implementing partners in Afghanistan, GAO and other 
oversight agencies, however, have highlighted gaps that show 
USAID continued to inconsistently apply performance management 
procedures, falls short in maintaining institutional knowledge 
and needs to improve oversight of contractors.
    The subcommittee will continue to do its work. And we thank 
you, gentlemen, for appearing before us. With that the 
subcommittee is adjourned.
    [Whereupon, at 4:21 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                 Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
